                                Closeout for M99040022




                On March 2, 1999, an NSF program manager (PM)' sent OIG a
memorandum stating that a PI* who was listed as an education director on two
proposals3submitted to NSF under a new Science and Technology Center (STCs)
competition had inaccurate current and pending support statements because the PI had
not listed the other STC proposal as pending. The PM learned of this inaccuracy during
a team site visit at one of the proposing institutions and at which the PI was present. At
the site visit the PM requested all the senior members of the team to verify their pending
support statements to ensure they would have adequate time for the work should the
proposal be funded. The PI listed his involvement as the education director in both
pendi~gproposals. The PI also wrote on Form 1239 that the center he was currently
directing would be going out of existence on 1/31/00 and it was his intention to integrate
the two education programs if both proposed centers were supported.

              After reviewing pertinent information in the two pending proposals and
speaking with the PM we determined that this was a management issue that had been
identified and resolved by the PM during the site visit. Therefore, this inquiry is closed,
and no further action will be taken.


cc: Inquiry, lG




  Footnote redacted.
2
 Footnote redacted.
3
  Footnote redacted.


Closeout                            Page 1 of 1                             M99-22
